                                                                       Isssue Date
                                                                                 Septeember 23, 20009
                                                                       A
                                                                       Audit Report Num
                                                                                      mber
                                                                                     20099-AO-1003




TO:          Nelson Bregon, Geeneral Deputyy Assistant Secretary,
                                                       S          D


FROM:        Sonya D.
                   D Lucas, Accting Regionnal Inspectorr General forr Audit, GAH

SUBJEC
     CT: Louisiaana Land Truust, As the State
                                        S     of Louisiana’s Subrrecipient, Diid Not Alwayys
           Ensu ure That Prooperties Weree Properly Maintained
                                                    M


                                      HIGH
                                         HLIGHT
                                              TS


 What We
      W Audited
              d and Why

              We au udited the Loouisiana Lannd Trust (LLLT), a $29 million
                                                                     m      Comm munity
              Devellopment Block Grant (CD    DBG) disastter recovery subrecipiennt of the Statee of
              Louisiana, Office of Communnity Developpment (State)). We initiatted the auditt as
              part of the Office of Inspectorr General (O
                                                        OIG) Gulf Cooast Region’s audit plan and
              examiination of relief efforts provided
                                             p        by the
                                                           t federal government
                                                                      g            i the afterm
                                                                                   in         math
              of Huurricanes Kattrina and Ritta. Our audit objective was
                                                                      w to determ mine whetheer
              LLT, as the State’’s subrecipieent, properlyy maintained properties received
                                                                                  r        from
                                                                                              m the
              State.

 What We
      W Found


              Althouugh LLT ensured that its maintenance contractoor generally maintained
                                                                                     m            t
                                                                                                  the
              lawnss of propertiees, it did not always ensuure that the properties
                                                                        p          were properlyy
              maintained overalll. Of 67 prooperties visitted, 23 (34 percent)
                                                                        p        had maintenance
              deficiencies, mosttly related too security annd cleanliness, which vioolated contraact

                                                  1
           requirements. This condition occurred because (1) the State did not clearly
           convey its expectations to LLT regarding property maintenance, (2) LLT did not
           ensure that its maintenance contractor complied with the terms of its contract, (3)
           the contract between LLT and its maintenance contractor did not specifically
           detail the responsibilities of the maintenance contractor, and (4) LLT’s inspectors
           did not have written policies and procedures to follow during their inspections.
           Further, LLT did not take action on some properties, properly coordinate with
           other entities when making decisions, or document its decisions in its system. As
           a result, there were services that were not satisfactorily performed, and some
           properties presented safety risks to the general public, which could potentially
           cause LLT to incur financial liabilities.


What We Recommend
           We recommend that HUD’s General Deputy Assistant Secretary for Community
           Planning and Development require the State to (1) specify its expectations of LLT
           as related to property maintenance, in its cooperative endeavor agreement; (2)
           continuously monitor LLT to ensure that its maintenance contractor complies with
           the terms of its contract; (3) ensure that LLT clearly conveys and documents the
           maintenance contractor’s expectations; (4) ensure that LLT develops written
           policies and procedures for its inspectors to follow; (5) correct deficiencies
           identified at the 23 properties; and (6) ensure that LLT coordinates with the State
           when making decisions, document decisions made in its system, and create a
           written policy for prioritizing properties for demolition.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response


           During the audit, we provided the results of our review to the State’s management
           staff and HUD. We conducted an exit conference with the State and HUD on
           August 20, 2009.

           We asked the State to provide comments on our draft audit report by August 28,
           2009, and it provided written comments on that day. The State generally
           disagreed with our results, but agreed with our recommendations. The complete
           text of the auditee’s written response, along with our evaluation of the response,
           can be found in appendix A of this report.




                                            2
                              TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
        Finding 1: LLT, As the State’s Subrecipient, Did Not Always Ensure That   5
        Properties Were Properly Maintained

Scope and Methodology                                                             12

Internal Controls                                                                 13

Appendixes
   A.   Auditee Comments and OIG’s Evaluation                                     15
   B.   Schedule of Property Deficiencies                                         19
   C.   LLT Maintenance Cut Schedule                                              20
   D.   LLT Property Inspector Routine                                            21




                                              3
                       BACKGROUND AND OBJECTIVE

The Road Home Corporation, now doing business as Louisiana Land Trust (LLT), is a nonprofit
organization governed by a seven-member board of directors. LLT was formed in 2006 by the
Louisiana State Legislature to manage the properties purchased by the State of Louisiana, Office
of Community Development (State), under the current Road Home program as part of the
ongoing hurricane recovery efforts. LLT’s mission is to “finance, own, lease, sell, exchange,
donate or otherwise hold or transfer a property interest in housing stock damaged by Hurricane
Katrina or Hurricane Rita.”

Funding for LLT is provided solely through Community Development Block Grant (CDBG)
disaster recovery funds administered by the State. The State and LLT entered into a loan and
regulatory agreement, effective March 1, 2007. The purpose of the loan was to provide LLT with
the funds necessary to operate and administer its program responsibilities under the Road Home
program. The State initially agreed to lend LLT an amount not to exceed $2.5 million on a line of
credit basis. However, the first amendment increased the amount to not exceed $32.5 million, and
the second amendment increased the amount again to not exceed approximately $61.7 million.

The State also executed a cooperative endeavor agreement (agreement) with LLT, effective
November 1, 2007. Under this agreement, LLT agreed to receive, maintain, and dispose of
properties transferred to it, as directed by the State, at the closing of Road Home grants when the
grant recipient chose to transfer property ownership. Additionally, LLT agreed that it would be
treated as a subrecipient of CDBG disaster recovery funds and would comply with the CDBG
disaster recovery program and compliance requirements.

According to LLT’s property listing, as of December 31, 2008, LLT had a total of 9,307
properties in 27 parishes throughout the State. The properties were primarily located in Orleans
and Saint Bernard parishes. LLT hired a maintenance contractor, effective August 16, 2007, to
carry out its property maintenance responsibilities. The contract required certain services to be
provided by the contractor for each property received by LLT. Those services included but were
not limited to, (1) conducting initial and interim written assessments of existing property
conditions and recommendations for maintenance; (2) establishing a written or electronic
maintenance schedule and a tracking system; (3) securing each site (removing debris, boarding
windows, securing doors, etc.); (4) removing and disposing of litter; (5) performing grass
cutting, grass edging, curb sweeping, and removal of clippings; (6) performing light property
maintenance as needed; and (7) coordinating with other contractors or resources as necessary for
purposes related to the property that are otherwise beyond the scope of the contract.

As of December 31, 2008, LLT had received more than $29 million from the State to carry out
its duties under the agreement. Of this amount, approximately $22 million was paid to its
maintenance contractor. Our audit objective was to determine whether LLT, as the State’s
subrecipient, properly maintained properties received from the State.




                                                 4
                                 RESULTS OF AUDIT

Finding 1: LLT, As the State’s Subrecipient, Did Not Always Ensure
That Properties Were Properly Maintained

Although LLT ensured that its maintenance contractor generally maintained the lawns of
properties, it did not always ensure that the properties were properly maintained overall. Of 67
properties visited, 23 (34 percent) were not maintained in accordance with contract requirements.
This condition occurred because (1) the State did not clearly convey its expectations to LLT
regarding property maintenance, (2) LLT did not ensure that its maintenance contractor complied
with the terms of its contract, (3) the contract between LLT and its maintenance contractor did
not specifically detail the responsibilities of the maintenance contractor, and (4) LLT’s
inspectors did not have written policies and procedures to follow during their inspections.
Further, LLT did not take action on some LLT properties; properly coordinate with other entities,
such as the State and respective parishes, when making decisions not to take action; or document
its decisions in its system. As a result, there were services that were not satisfactorily performed,
and some properties presented safety risks to the general public, which could potentially cause
LLT to incur financial liabilities.



Property Maintenance
Requirements


               As HUD’s grantee, the State is responsible for administering and monitoring its
               CDBG disaster-related programs. To aid in its efforts, the State executed a
               cooperative endeavor agreement (agreement) with LLT, which required LLT to
               receive, maintain, and dispose of properties transferred to it from the State through
               the Road Home program. As a result, LLT executed a contract with a maintenance
               contractor in an effort to ensure that it maintained the properties in accordance with
               that agreement.

               The contract between LLT and its maintenance contractor required that each
               property be maintained so that it complied with ordinances related to the presence
               and condition of weeds, grass, vegetation, debris, trash, junk, and/or refuse. It
               further required that properties be secured to prevent or discourage unauthorized
               entry or use of the premises for unauthorized purposes. Specifically, Section
               1.1(Concise Description of Services) of the contract required the maintenance
               contractor to

               •   Conduct initial and interim written assessments of existing property
                   conditions and recommendations for maintenance;
               •   Establish a written or electronic maintenance schedule and a tracking system;

                                                  5
                 •    Secure each site (remove debris, board windows, secure doors, etc.);
                 •    Remove and dispose of litter;
                 •    Perform grass cutting, grass edging, curb sweeping, and removal of clippings;
                 •    Perform light property maintenance as needed; and
                 •    Coordinate with other contractors or resources as necessary for purposes
                      related to the property that were otherwise beyond the scope of the contract.



Lawns Generally Cut and
Edged

                 Site visits to 67 properties and reviews of the contractor’s system determined that 63
                 of the lawns were maintained in accordance with contract requirements. The
                 remaining four1 (6 percent) properties had minor deficiencies associated with the
                 condition of the lawn. Specifically, one property needed edging only, one property
                 had a number of tree limbs and overgrown vegetation in the yard, one property had
                 excessive tree limbs in the yard and needed edging, and the final property’s curb was
                 not swept. Although four properties had minor deficiencies associated with the
                 condition of the lawn, the maintenance contractor generally ensured that the lawns
                 were properly maintained.


    Properties Not Properly
    Secured and/or Cleaned


                 Although the lawns of the 67 properties were generally maintained, 212 (31
                 percent) were not properly secured to prevent or discourage unauthorized entry or
                 use of the premises for unauthorized purposes and/or not cleaned in accordance
                 with the contract requirements. Of the 21 properties,

                      •   Ten were not secured;
                      •   Six had various amounts of debris and/or trash on the lawns or in detached
                          structures on the property; and
                      •   Five had both security and debris deficiencies.




1
  Two of these properties also had debris issues and are discussed in the next section.
2
  Two of the 21 properties were among the four properties that had lawn maintenance deficiencies (discussed in the
section above, titled Lawns Were Generally Cut and Edged). There were nineteen additional properties without
lawn maintenance deficiencies that when added to the four total 23 properties with deficiencies.

                                                        6
       For example, the front door and windows on the house pictured below were open
       and/or broken.




                          Property ID number: 06HH113903

       Additionally, the bricks on the side of the house (pictured below left) were caved
       in. Therefore, the property was not properly secured to prevent unauthorized
       entry. This issue was noted in the contractor’s system approximately six months
       before our review but was not corrected at the time of our site visit. Further, there
       was a large hole in the house (pictured below right) that could also allow
       unauthorized entry into the house. This issue was also noted in the contractor’s
       system approximately three months before our review but was not corrected at the
       time of our site visit.




Property ID number: 06HH122338                       Property ID number: 06HH084610




                                         7
            The properties pictured below had unsecured sheds in the backyard that were full
            of debris and litter. For the property in the picture on the left, comments had been
            noted in the contractor’s system regarding this issue approximately f14 months
            before our review but were not corrected at the time of our site visit.




     Property ID number: 06HH086799               Property ID number: 06HH069514

            See the schedule in appendix B for a complete listing of all property maintenance
            deficiencies noted.

State’s Expectations Not
Specific

            The State’s agreement with LLT did not specifically define the expectations
            and/or requirements as related to the maintenance of properties. As a result, LLT
            lacked clarity on how to maintain the properties. Therefore, the State must amend
            its agreement to ensure that it clearly conveys its expectations to LLT regarding
            property maintenance.


Policies Not Adequate and/or
Developed


            Properties were not secured and/or cleaned because LLT’s property inspectors did
            not have written property maintenance policies and procedures in place.
            Additionally, LLT did not ensure that its maintenance contractor used a
            maintenance plan as required in its contract and had adequate property
            maintenance policies and procedures.



                                             8
                   LLT property inspectors used a document3 that generally explained the property
                   inspector routine. The document explained the types of deficiencies that the
                   inspectors should look for while inspecting a property. However, it was not a
                   comprehensive policy since it did not address other procedures such as the
                   inspectors’ reporting procedures for deficiencies that were identified and a follow-
                   up procedure to ensure that deficiencies were addressed and/or corrected. LLT
                   must develop written policies and procedures for its inspectors to follow during
                   inspections, including written reporting and follow-up procedures for deficiencies
                   that are identified.

                   Further, according to LLT management, the maintenance contractor did not use a
                   written maintenance plan because the contract outlined its intentions. In addition,
                   the maintenance contractor indicated that the maintenance cut schedule,4 which
                   described the annual number of grass cuts for each property, was the written
                   maintenance plan. However, the maintenance cut schedule was not a
                   comprehensive maintenance plan because it only addressed the number of lawn
                   cuts per month and not the security and cleanliness of the properties. Therefore,
                   LLT must ensure that its maintenance contractor develops a maintenance plan as
                   required by the contract and policies and procedures related to property
                   maintenance. Lastly, LLT must clearly convey and document the maintenance
                   contractor’s responsibilities related to property maintenance.


    Action Not Taken or Properly
    Coordinated and Decisions Not
    Documented

                   LLT indicated that it did not take action on properties, such as those pictured
                   above, because it planned to demolish them. Although demolition efforts began
                   in March 2009, a review of LLT’s demolition schedule showed that only 2 of the
                   23 properties with maintenance deficiencies were demolished and/or scheduled
                   for demolition since our site visits. As a result, the unsafe conditions at the
                   properties remained. In addition, according to documentation provided by LLT, it
                   did not coordinate with other entities, such as the State and respective parishes,
                   when making decisions not to take action on properties with potential safety
                   hazards. However, those entities could be held liable if someone incurred injuries
                   on one of the properties.

                   Further, LLT’s system did not contain management decisions or directions to its
                   contractor to address actions taken on some properties. According to LLT’s
                   management, in some cases, it instructed the maintenance contractor not to
                   correct noted deficiencies, and those decisions were documented in the
                   contractor’s system. However, upon reviewing the contractor’s system, decisions


3
    See appendix D for the document used by LLT inspectors.
4
    See appendix C for the maintenance cut schedule.

                                                        9
             were not documented for the 23 properties identified with maintenance
             deficiencies.

             LLT must ensure that it coordinates with other entities and documents decisions
             made in its system so that these deficiencies are properly corrected to reduce
             safety risks to the general public and potential financial liabilities.

Conclusion

             Although LLT generally ensured that lawns were maintained, it did not always
             ensure that other property maintenance duties were performed. Of 67 properties
             reviewed, 23 (34 percent) were not maintained in accordance with contract
             requirements.

             This condition occurred because the State did not clearly convey its expectations
             to LLT regarding property maintenance. Additionally, LLT did not ensure that its
             maintenance contractor complied with the terms of its contract and had sufficient
             controls related to property maintenance. Specifically, the contractor did not use
             a maintenance plan as required by its contract and as a result, it did not perform
             all services required. Also, the contract between LLT and its maintenance
             contractor did not specifically detail the responsibilities of the maintenance
             contractor. Additionally, LLT inspectors did not have written inspection policies
             and procedures, nor did LLT ensure that its maintenance contractor had adequate
             property maintenance polices and procedures. Further, LLT did not take action
             on some LLT properties, properly coordinate with other entities when making
             decisions not to take action, or document its decisions in its system. As a result,
             there were services that were not satisfactorily performed, and some properties
             presented safety risks to the general public, which could potentially cause LLT to
             incur financial liabilities.

Recommendations



             We recommend that HUD’s General Deputy Assistant Secretary for Community
             Planning and Development require the State to

             1A. Specify its expectations of LLT regarding property maintenance in its
                 cooperative endeavor agreement.

             1B. Ensure that LLT’s maintenance contractor (a) complies with the terms of its
                 contract, (b) develops a maintenance plan for each property as required in
                 the contract, and (c) develops policies and procedures with regard to
                 property maintenance.



                                             10
1C. Ensure that LLT clearly conveys and documents the maintenance
    contractor’s expectations with regard to property maintenance.

1D. Ensure that LLT develops written policies and procedures for its inspectors
    to follow during inspections, including written reporting and follow-up
    procedures for deficiencies identified.

1E. Ensure that the deficiencies identified at the 21 properties with security and
    cleanliness issues and the two properties with lawn issues are corrected.

1F. Ensure that LLT coordinates with the State when making decisions for
    hazardous properties, document decisions made within the system, and
    create a written policy for prioritizing properties for demolition.




                                11
                          SCOPE AND METHODOLOGY

We conducted our audit at LLT’s office in Baton Rouge, Louisiana, and the HUD Office of
Inspector General (OIG) office in New Orleans, Louisiana. We performed our audit work
between January and July 2009.

To accomplish our objective, we used the electronic property data received from LLT and
information contained within the contractor’s system. Through our file review, we determined
that the electronic property data were generally reliable. Between March 1, 2007, and December
31, 2008, the property listing contained a universe of 9,307 properties. We employed the
representative statistical sampling method because it allowed selections to be made without bias
from the audit universe. Using this method, we selected a random sample of 68 properties for
review. However, one of the properties was removed from our sample because it was only
accessible by boat. Therefore, our sample was comprised of the remaining 67 properties. We
conducted on-site visits to the 67 properties to observe and evaluate the cleanliness, security, and
general lawn maintenance of the properties.

We reviewed the system, for each of the 67 properties, to determine whether the lawns were cut
according to the established maintenance cut schedule. In addition, we reviewed the system to
determine whether LLT instructed the contractor not to correct any of the issues/deficiencies
identified during our site visits. Further, we reviewed LLT’s demolition schedule to determine
whether any of our sampled properties had been demolished or scheduled for demolition since
our site reviews.

In addition to property site reviews and data analyses, we

•   Interviewed LLT’s and its contractor’s staff;

•   Reviewed the grant agreements executed between HUD and the State, LLT’s written policies
    and procedures, the contract executed between LLT and its maintenance contractor and
    amendments, the Code of Federal Regulations, public laws, and other applicable legal
    authorities relevant to the CDBG Disaster Recovery Assistance grants; and

•   Reviewed reports issued by HUD and the Louisiana legislative auditor’s office.

Our audit period covered March 1, 2007, through December 31, 2008. We conducted the audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                                12
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

     •   Program operations,
     •   Relevance and reliability of information,
     •   Compliance with applicable laws and regulations, and
     •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined that the following internal controls were relevant to our audit
              objective:

                  •   Program operations - Policies and procedures that management has
                      implement to reasonably ensure that properties are maintained in accordance
                      with contract requirements and CDBG program requirements.
                  •   Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data within
                      the management information system are obtained, maintained, and fairly
                      disclosed in reports.
                  •   Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that CDBG disaster
                      fund use is consistent with HUD’s laws and regulations.
                  •   Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that CDBG disaster funds are
                      safeguarded against waste, loss, and misuse.


              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               13
Significant Weaknesses


           Based on our review, we believe that the following items are significant weaknesses:

           •      LLT, as the State’s subrecipient, did not always ensure that its maintenance
                  contractor complied with the terms of its contract (finding 1),
           •      LLT, as the State’s subrecipient, did not ensure that its contract with its
                  maintenance contractor specifically detailed the contractor’s responsibilities
                  (finding 1),
           •      LLT, as the State’s subrecipient, did not ensure that its maintenance
                  contractor used a written maintenance plan that specifically detailed
                  maintenance requirements as required by the contract (finding 1), and
           •      LLT, as the State’s subrecipient, did not implement policies and procedures
                  for its inspectors to follow during their inspections (finding 1).




                                            14
                        APPENDIXES

Appendix A
     AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation      Auditee Comments




                            15
Comment 1




Comment 2




Comment 3




            16
17
OIG Evaluation of Auditee’s Comments

Comment 1   The State asserted that it would initially review LLT’s response to the OIG’s
            recommendations and assess whether LLT’s cited corrective actions, contained
            within its response, satisfied the recommendation. Further, the State stated that it
            would include a review of LLT’s corrective actions, regarding the five
            recommendations, in its next monitoring visit. Additionally, the State affirmed
            that it would review (1) the revisions LLT makes to its policies and procedures to
            clarify and fully define the contractor's property maintenance requirements; (2)
            the revisions LLT incorporates into its policies and procedures regarding it's
            inspectors' responsibilities including, reporting and follow-up procedures for
            deficiencies identified; and (3) LLT's development of policies and procedures to
            address the prioritization of properties to be demolished. The State also agreed to
            review how LLT documented its management decisions regarding property
            maintenance and security.

            We acknowledge the State's efforts to aid in ensuring that the OIG's
            recommendations are properly implemented.

Comment 2   According to the State, LLT reported that it had corrected the maintenance
            deficiencies, at the 23 properties, cited by OIG.

            Since the corrections occurred after our review period and we did not receive
            supporting documentation, we were unable to confirm LLT's claim that it had
            corrected the maintenance deficiencies, at the 23 properties, cited by OIG.

Comment 3   The State stated that LLT believed that overall, the properties had been
            adequately secured and cleaned, as required of the contract requirements. Further,
            the State stated that LLT believed that cost effectiveness should be considered in
            deciding the extent that federal funds should be expended on the maintenance of
            properties that would be demolished in the near future.

            We reviewed the properties based on LLT's maintenance contractor's
            responsibilities as outlined in the contract. Since LLT did not provide a cost
            benefit analysis or other related documentation to justify its contractor not
            performing duties, as specified in the contract, we stand by our initial assertion
            that some properties were not properly secured to prevent or discourage
            unauthorized entry or use of the premises for unauthorized purposes and/or not
            cleaned in accordance with the contract requirements.




                                             18
Appendix B
         SCHEDULE OF PROPERTY DEFICIENCIES


    Property ID Number             Security5                Debris6              Lawn maintenance7 
       06HH054425                     X
       06HH069514                                             X                              X
       06HH085431                       X
       06HH195254                       X
       06HH067606                       X                     X
       06HH052874                                             X                              X
       06HH016877                                             X
       06HH030569                       X
       06HH031179                       X
       06HH039169                       X                     X
       06HH041099                       X
       06HH041378                                             X
       06HH051828                       X
       06HH052138                                             X
       06HH054138                                             X
       06HH064973                                                                            X
       06HH084610                       X
       06HH086799                       X                     X
       06HH087732                                                                            X
       06HH096639                       X
       06HH113903                       X                     X
       06HH118039                       X
       06HH122338                       X                     X




5
  Security (access) issues including open doors, unlocked doors, and open windows.
6
  Debris on the properties including, trash, inoperable vehicles, vehicle parts, and old bath tubs.
7
  Lawn maintenance issues including lack of edging, excessive tree limbs on the lawn, and un-swept sidewalks.



                                                       19
Appendix C
               LLT MAINTENANCE CUT SCHEDULE


Schedule of routine maintenance:
January        February      March            April     May        June
1cut           1 cut         2 cuts           2 cuts    3 cuts     3 cuts
July           August        September        October   November   December
3 cuts         3 cuts        2 cuts           2 cuts    1 cut      1 cut




                                         20
Appendix D
                  LLT PROPERTY INSPECTOR ROUTINE

LLT property inspectors perform the following activities:

LLT Properties with Structures

   •    If a structure exists, a thorough inspection of entries into the structure is conducted. All
        doors and windows are visually checked as well as other open areas that may be used for
        entry.
   •    One entry point (usually the front door) is locked with a clasps and pad lock provided and
        installed by the contractor.
   •    All openings are either closed with existing coverings (windows drawn closed and doors
        shut and secured with screws) or covered with plywood.
   •    A thorough inspection of the properties’ grounds is performed including grass height;
        quality of service delivered by the contractor such as the presence of weeds, tree limbs,
        trash, and debris; and removal of excess grass clippings on sidewalks and driveways.
   •    The inspector will check for the presence of motorized vehicles, trailers, or appliances.
   •    The inspector will check for visible safety hazards such as active/live power lines,
        running water, or the odor or presence of natural gas.
   •    The inspector will visually check for other potential hazardous conditions, such as sharp
        objects protruding from the structure or ground and depressions or major holes in the
        ground, which may hold water and foster mosquito infestation.

LLT Properties with Slabs

   •    A thorough inspection of the properties’ grounds is performed including grass height;
        quality of service delivered by the contractor such as the presence of weeds, tree limbs,
        trash, and debris; and removal and excess grass clippings on sidewalks and driveways.
   •    The inspector will check for the presence of motorized vehicles, trailers, or appliances.
   •    The inspector will check for visible safety hazards such as active/live power lines,
        running water, or the odor or presence of natural gas.
   •    The inspector will visually check for other potential hazardous conditions, such as sharp
        objects protruding from the structure or ground and depressions or major holes in the
        ground.

LLT Properties with Lot Land Only

    •   Same as for properties with slabs.




                                                21
